      40386                                Federal Register / Vol. 69, No. 127 / Friday, July 2, 2004 / Notices

        Dated: June 25, 2004.                                    C. Leads and coordinates activities to               Justice (DOJ), the Centers for Medicare
      Elizabeth M. Duke,                                       prevent and detect fraud and abuse in                  & Medicaid Services (CMS) and other
      Administrator.                                           HHS programs and operations.                           governmental agencies, and is
      [FR Doc. 04–15088 Filed 7–1–04; 8:45 am]                   D. Detects wrongdoers and abusers of                 responsible for the reporting and
      BILLING CODE 4165–15–P                                   HHS programs and beneficiaries so                      legislative and regulatory review
                                                               appropriate remedies may be brought to                 functions required by the Inspector
                                                               bear.                                                  General Act.
      DEPARTMENT OF HEALTH AND                                   E. Keeps the Secretary and the
                                                                                                                      Section AFA.10, Immediate Office of
      HUMAN SERVICES                                           Congress fully and currently informed
                                                                                                                      the Inspector General—Organization
                                                               about problems and deficiencies in the
      Office of Inspector General                              administration of HHS programs and                       IOIG is comprised of the Inspector
                                                               operations and about the need for and                  General, the Principal Deputy Inspector
      Statement of Organization, Functions,                    progress of corrective action, including               General and an immediate office staff,
      and Delegations of Authority                             imposing sanctions against providers of                including the Office of External Affairs.
         This notice amends Part A (Office of                  health care under Medicare and                         Section AFA.20, Immediate Office of
      the Secretary) of the Statement of                       Medicaid who commit certain                            the Inspector General—Functions
      Organization, Functions, and                             prohibited acts.
                                                                 In support of its mission, OIG carries                  As the senior official of the
      Delegations of Authority for the                                                                                organization, the Inspector General
      Department of Health and Human                           out and maintains an internal quality
                                                               assurance system and a peer review                     supervises the Chief Counsel to the
      Services (HHS) to reflect a realignment                                                                         Inspector General and the Deputy
      of functions within the Office of                        system with other Offices of Inspectors
                                                               General, including periodic quality                    Inspectors General who head the major
      Inspector General’s (OIG) Immediate                                                                             OIG components. The Inspector General
      Office of the Inspector General (IOIG),                  assessment studies and quality control
                                                               reviews, to provide reasonable                         is appointed by the President, with the
      Office of Management and Policy                                                                                 advice and consent of the Senate, and
      (OMP), Office of Evaluation and                          assurance that applicable laws,
                                                               regulations, policies, procedures,                     reports to and is under the general
      Inspections (OEI), Office of Counsel to                                                                         supervision of the Secretary or, to the
      the Inspector General (OCIG), Office of                  standards, and other requirements are
                                                               followed, are effective, and are                       extent such authority is delegated, the
      Audit Services (OAS), and Office of
                                                               functioning as intended in OIG                         Deputy Secretary, but does not report to
      Investigations (OI). The statement of
                                                               operations.                                            and is not subject to supervision by any
      organization, functions, and delegations
                                                                                                                      other officer in the Department. In
      of authority conforms to and carries out                 Section AF.10, Office of Inspector                     keeping with the independence
      the statutory requirements for operating                 General—Organization                                   conferred by the Inspectors General Act,
      OIG. Chapter AF was last published in
                                                                 There is at the head of OIG a statutory              the Inspector General assumes and
      its entirety on October 28, 1997.
         The realignment of functions within                   Inspector General, appointed by the                    exercises, through line management, all
      IOIG, OMP, OEI, OCIG, OAS, and OI has                    President and confirmed by the Senate.                 functional authorities related to the
      been done to allow greater staff                         This office consists of six organizational             administration and management of OIG
      flexibility and to better reflect the                    units:                                                 and all mission-related authorities
      current work environment and priorities                    A. Immediate Office of the Inspector                 stated or implied in the law or delegated
      within OIG. In addition, this notice sets                General (AFA).                                         directly from the Secretary.
      forth a number of technical changes in                     B. Office of Management and Policy                      The Inspector General provides
      Chapter AF that serve to update                          (AFC).                                                 executive leadership to the organization
      references to office titles and clarify                    C. Office of Evaluation and                          and exercises general supervision over
      OIG’s organizational structure and                       Inspections (AFE).                                     the personnel and functions of its major
      responsibilities with respect to                           D. Office of Counsel to the Inspector                components. The Inspector General
      information technology.                                  General (AFG).                                         determines the budget needs of OIG,
         As amended, Chapter AF now reads                        E. Office of Audit Services (AFH).                   sets OIG policies and priorities, oversees
      as follows:                                                F. Office of Investigations (AFJ).                   OIG operations and provides reports to
                                                                                                                      the Secretary and the Congress. By
      Section AF.00, Office of Inspector                       Section AF.20, Office of Inspector                     statute, the Inspector General exercises
      General—Mission                                          General—Functions                                      general personnel authority, e.g.,
         The Office of Inspector General (OIG)                   The component sections that follow                   selection, promotion, and assignment of
      was established by law as an                             describe the specific functions of the                 employees, including members of the
      independent and objective oversight                      organization.                                          senior executive service. The Inspector
      unit of the Department to carry out the                                                                         General delegates related authorities as
                                                               Section AFA.00, Immediate Office of
      mission of promoting economy,                                                                                   appropriate.
                                                               the Inspector General—Mission                             The Principal Deputy Inspector
      efficiency and effectiveness through the
      elimination of waste, abuse and fraud.                      The Immediate Office of the Inspector               General assists the Inspector General in
      In furtherance of this mission, the                      General (IOIG) is directly responsible for             the management of OIG, and during the
      organization:                                            meeting the statutory mission of OIG as                absence of the Inspector General, acts as
         A. Conducts and supervises audits,                    a whole and for promoting effective OIG                the Inspector General.
      investigations, inspections and                          internal quality assurance systems,                       The Office of External Affairs is
      evaluations relating to HHS programs                     including quality assessment studies                   comprised of three components—Public
      and operations.                                          and quality control reviews of OIG                     Affairs, Legislative and Regulatory
         B. Identifies systemic weaknesses                     processes and products. The office also                Affairs, and the Executive Secretariat.
      giving rise to opportunities for fraud                   plans, conducts and participates in a                  The office conducts and coordinates
      and abuse in HHS programs and                            variety of interagency cooperative                     reviews of existing and proposed
      operations and makes recommendations                     projects and undertakings relating to                  legislation and regulations related to
      to prevent their recurrence.                             fraud and abuse with the Department of                 HHS programs and operations to


VerDate jul<14>2003   17:42 Jul 01, 2004   Jkt 203001   PO 00000   Frm 00039   Fmt 4703   Sfmt 4703   E:\FR\FM\02JYN1.SGM   02JYN1
                                           Federal Register / Vol. 69, No. 127 / Friday, July 2, 2004 / Notices                                        40387

      identify their impact on economy and                     publishes those policies in the OIG                    Section AFE.10, Office of Evaluation
      efficiency and their potential for fraud                 Administrative Manual. It serves as OIG                and Inspections—Organization
      and abuse. It serves as contact for the                  liaison to the Office of the Secretary for
      press and electronic media and serves as                 personnel issues and other                               This office is comprised of the
      OIG congressional liaison. The office                    administrative policies and practices,                 following components:
      prepares or coordinates congressional                    and on equal employment opportunity                      A. Immediate Office.
      testimony and confers with officials in                  and other civil rights matters. It                       B. Policy and Oversight Division.
      the Office of the Secretary staff divisions              coordinates internal control reviews for                 C. Program Evaluations Division.
      on congressional relations, legislation                  OIG.                                                     D. Regional Operations.
      and public affairs. The office compiles                  B. Information Technology                                E. Technical Support Staff.
      the Office of Inspector General
      Semiannual Report to the Congress and                       The office is responsible for                       Section AFE.20, Office of Evaluation
      certain legislatively mandated reports to                information resources management                       and Inspections—Functions
      the Congress. It develops and publishes                  (IRM), as defined by the Paperwork
                                                               Reduction Act, OMB Circular A–130,                     A. Immediate Office of the Deputy
      OIG newsletters and other issuances to
                                                               the Federal Information Resources                      Inspector General for OEI
      announce and promote OIG activities
      and accomplishments. The office also                     Management regulations, the Computer                     This office is directed by the Deputy
      has primary responsibility for                           Security Act of 1987, the Clinger-Cohen                Inspector General for OEI who, with the
      developing and promulgating all OIG                      Act, the Federal Information Security                  assistance of an Assistant Inspector
      regulations for codification into the                    Management Act of 2002, HHS IRM                        General, is responsible for carrying out
      Code of Federal Regulations, and for                     Circulars, and by related guidance. The                OIG’s evaluations mission and
      preparing all OIG related notices and                    office also provides nationwide                        supervises the Directors for Policy and
      other documents for Federal Register                     information technology support to OIG                  Oversight, Program Evaluations,
      publication.                                             through management of its local area
                                                                                                                      Regional Operations, and Technical
                                                               networks, provision of computer end-
      Section AFC.00, Office of Management                                                                            Support. This office is also responsible
                                                               user and direct mission information
      and Policy—Mission                                                                                              for the oversight of the State Medicaid
                                                               technology (IT) support, maintenance of
                                                                                                                      Fraud Control Units and for certifying
         The Office of Management and Policy                   OIG information systems, and
                                                                                                                      and recertifying these units and for
      (OMP) provides mission support                           safeguarding sensitive information and
                                                                                                                      auditing their Federal funding.
      services to the Inspector General and                    IT resources. The Assistant Inspector
      other components. The office formulates                  General for Information Technology,                    B. Policy and Oversight
      and executes the budget, develops                        who reports to the Inspector General
                                                                                                                         This office develops OEI’s evaluation
      functional policies for the general                      through the Deputy Inspector General
                                                                                                                      and inspection policies, procedures and
      management of OIG, and manages                           for Management and Policy, serves as
                                                                                                                      standards. It manages OEI’s human and
      information technology resources.                        Chief Information Officer. In addition,
                                                                                                                      financial resources; develops and
         In support of its mission, the office                 the office operates a toll-free hotline for
                                                                                                                      monitors OEI’s management information
      carries out and maintains an internal                    OIG to permit individuals to call in
                                                                                                                      systems; and conducts management
      quality assurance system. The system                     suspected fraud, waste, or abuse; refers
                                                                                                                      reviews within the HHS/OIG and for
      includes quality control reviews of OMP                  the calls for appropriate action by HHS
                                                                                                                      other OIGs upon request. The office
      processes and products to ensure that                    agencies or other OIG components; and
                                                                                                                      carries out and maintains an internal
      policies and procedures are followed                     analyzes the body of calls to identify
                                                                                                                      quality assurance system. The system
      effectively and function as intended.                    trends and patterns of fraud and abuse
                                                                                                                      includes quality assessment studies and
                                                               needing attention.
      Section AFC.10, Office of Management                                                                            quality control reviews of OEI processes
      and Policy—Organization                                  C. Planning and Performance                            and products to ensure that policies and
                                                                 This office coordinates the                          procedures are effective, are followed,
        The office is directed by the Deputy                                                                          and are functioning as intended.
      Inspector General for Management and                     development of the work planning
      Policy and the Assistant Inspector                       process, including strategic long-range                C. Program Evaluations
      General for Information Technology.                      planning, tactical planning and the
                                                               annual work plan coordination and                        This office manages OEI’s work
      The office is comprised of the following                                                                        planning process, and develops and
      components:                                              production. It also is responsible for
                                                               overseeing emergency operations and                    reviews legislative, regulatory and
        A. Administrative Operations.                                                                                 program proposals to reduce
        B. Information Technology.                             national security classification policy,
                                                               and for coordinating updates of the Red                vulnerabilities to fraud, waste and
        C. Planning and Performance.                                                                                  mismanagement. It develops evaluation
                                                               Book, which addresses unimplemented
      Section AFC.20, Office of Management                     OIG recommendations to reduce fraud,                   techniques and coordinates projects
      and Policy—Functions                                     waste and abuse.                                       with other OIG and Departmental
                                                                                                                      components. It provides programmatic
      A. Administrative Operations                             Section AFE.00, Office of Evaluation                   expertise and information on new
        The office formulates and oversees the                 and Inspections—Mission                                programs, procedures, regulations and
      execution of the budget and confers                         The Office of Evaluation and                        statutes to OEI regional offices. It
      with the Office of the Secretary, the                    Inspections (OEI) is responsible for                   maintains liaison with other
      Office of Management and Budget, and                     conducting a comprehensive set of in-                  components in the Department, follows
      the Congress on budget issues. It issues                 depth evaluations of HHS programs,                     up on implementation of corrective
      quarterly grants to States for Medicaid                  operations and processes to identify                   action recommendations, evaluates the
      Fraud Control Units. It conducts                         vulnerabilities, to prevent and detect                 actions taken to resolve problems and
      management studies and analyzes and                      fraud, waste and abuse, and to promote                 vulnerabilities identified, and provides
      establishes and coordinates general                      efficiency and effectiveness in HHS                    additional data or corrective action
      management policies for OIG and                          programs and operations.                               options, where appropriate.


VerDate jul<14>2003   17:42 Jul 01, 2004   Jkt 203001   PO 00000   Frm 00040   Fmt 4703   Sfmt 4703   E:\FR\FM\02JYN1.SGM   02JYN1
      40388                                Federal Register / Vol. 69, No. 127 / Friday, July 2, 2004 / Notices

      D. Regional Operations                                       C. Industry Guidance.                              where appropriate, proposes and
        This office is responsible for OEI’s                                                                          litigates CMPs with respect to hospitals,
                                                               Section AFG.20, Office of Counsel to the
      mission in the field. The regional offices                                                                      and CMPs and program exclusions with
                                                               Inspector General—Functions
      conduct extensive evaluations of HHS                                                                            respect to physicians, for violations of
      programs and produce the results in                      A. Advice                                              the patient anti-dumping statute.
      inspection reports. They conduct data                                                                              3. The office proposes and litigates
                                                                  This office provides legal advice to
      and trend analyses of major HHS                                                                                 CMPs, assessments and program
                                                               the various components of OIG on
      initiatives to determine the effects of                                                                         exclusions under the CMP law and
                                                               issues that arise in the exercise of OIG’s
      current policies and practices on                                                                               other CMP authorities delegated to OIG.
                                                               responsibilities under the Inspector                      4. In coordination with DOJ, the office
      program efficiency and effectiveness.                    General Act of 1978. Such issues                       handles all False Claims Act cases,
      They recommend changes in program                        include the scope and exercise of the                  including qui tam cases, and is
      policies, regulations and laws to                        Inspector General’s authorities and                    responsible for final sign-off on False
      improve efficiency and effectiveness,                    responsibilities; investigative                        Claims Act settlements for the
      and to prevent fraud, abuse, waste and                   techniques and procedures (including                   Department, including the resolution of
      mismanagement. They analyze existing                     criminal procedure); the sufficiency and               the CMP and program exclusion
      policies to evaluate options for future                  impact of legislative proposals affecting              authorities that have been delegated to
      policy, regulatory and legislative                       OIG; and the conduct and resolution of                 OIG. It participates in settlement
      improvement.                                             investigations, audits and inspections.                negotiations and provides litigation
      E. Technical Support                                     The office evaluates the legal sufficiency             support. The office, in conjunction with
                                                               of OIG recommendations and develops                    OI, coordinates resolution of all
         This office provides statistical and                  formal legal opinions to support these
      database advice and services for                                                                                voluntary disclosure cases, both under
                                                               recommendations. When appropriate,                     the OIG Self-Disclosure Protocol and
      inspections conducted by the regional                    the office coordinates formal legal
      offices. It carries out analyses of large                                                                       otherwise, through: Liaison activities
                                                               opinions with the HHS Office of the                    with DOJ and the U.S. Attorney’s office;
      databases to identify potential areas of                 General Counsel. The office provides
      fraud and abuse and provides technical                                                                          the disclosure verification efforts of the
                                                               legal advice on OIG internal                           Office of Audit Services (OAS) and OI;
      assistance to the regional offices for
                                                               administration and operations,                         and final disposition and sign-off of the
      these purposes.
                                                               including appropriations, delegations of               matter. The office is responsible for
      Section AFG.00, Office of Counsel to the                 authority, ethics, OIG regulations,                    developing and maintaining a
      Inspector General—Mission                                personnel matters, the disclosure of                   comprehensive and coordinated
         The Office of Counsel to the Inspector                information under the Freedom of                       database on all settled and pending
      General (OCIG) is responsible for                        Information Act and the safeguarding of                False Claims Act and CMP cases under
      providing all legal services and advice                  information under the Privacy Act. The                 its authority.
      to the Inspector General, Principal                      office is responsible for conducting and                  5. The office also develops and
      Deputy Inspector General and all the                     coordinating litigation activities on                  monitors corporate and provider
      subordinate components of the Office of                  personnel and Equal Employment                         integrity programs adopted as part of
      Inspector General, in connection with                    Opportunity matters and Federal tort                   settlement agreements, conducts on-site
      OIG operations and administration, OIG                   actions involving OIG employees. The                   reviews, and develops audit and
      fraud and abuse enforcement and                          office is responsible for the clearance                investigative review standards for
      compliance activities, and OIG activities                and enforcement of subpoenas issued by                 monitoring such plans in cooperation
      designed to promote efficiency and                       OIG, and defends OIG in litigation                     with other OIG components. The office
      economy in the Department’s programs                     matters as necessary.                                  resolves breaches of integrity
      and operations. OCIG is also responsible                                                                        agreements through the development of
                                                               B. Administrative and Civil Remedies
      for proposing and litigating civil money                                                                        corrective action plans and through the
      penalty (CMP) and program exclusion                         1. This office is responsible for                   imposition of sanctions.
      cases within the jurisdiction of OIG, for                determining whether to propose or
                                                               implement administrative sanctions,                    C. Industry Guidance
      coordinating False Claims Act and
      criminal, civil and administrative fraud                 including CMPs within the jurisdiction                    This office is responsible for drafting
      and abuse law enforcement matters, and                   of OIG, assessments, and program                       and issuing advisory opinions to the
      for resolving voluntary disclosure cases.                exclusions. The office, in conjunction                 health care industry and members of the
      OCIG develops guidance to assist                         with the Office of Investigations (OI),                public on whether an activity (or
      providers in establishing compliance                     effectuates all mandatory and                          proposed activity) would constitute
      programs; monitors ongoing compliance                    permissive exclusions from                             grounds for the imposition of a sanction
      of providers subject to integrity                        participation in Federal health care                   under the anti-kickback statute, the
      agreements; and promotes industry                        programs under the Social Security Act;                CMP law or the program exclusion
      awareness through the issuance of                        decides on all requests for reinstatement              authorities, and on other issues
      advisory opinions, fraud alerts, and                     from, or waiver of, exclusions; and                    pertaining to the anti-kickback statute.
      special advisory bulletins.                              participates in developing standards                   The office develops and updates
                                                               governing the imposition of these                      procedures for the submission of
      Section AFG.10, Office of Counsel to the                 exclusion authorities. The office                      requests for advisory opinions and for
      Inspector General—Organization                           litigates appeals of program exclusions                determining the fees that will be
        The office is directed by the Chief                    before the Departmental Appeals Board                  imposed. The office solicits and
      Counsel to the Inspector General and                     and assists DOJ in handling any                        responds to proposals for new
      the Assistant Inspector General for Legal                subsequent appeals of such cases to the                regulatory safe harbors to the anti-
      Affairs. The office is comprised of the                  Federal courts.                                        kickback statute, modifications to
      following components:                                       2. The office reviews all cases referred            existing safe harbors, and new fraud
        A. Advice.                                             by CMS under the patient anti-dumping                  alerts. The office consults with DOJ on
        B. Administrative and Civil Remedies.                  authority of the Social Security Act and,              all proposed advisory opinions and safe


VerDate jul<14>2003   17:42 Jul 01, 2004   Jkt 203001   PO 00000   Frm 00041   Fmt 4703   Sfmt 4703   E:\FR\FM\02JYN1.SGM   02JYN1
                                           Federal Register / Vol. 69, No. 127 / Friday, July 2, 2004 / Notices                                         40389

      harbors before issuance or publication.                     B. The office provides comprehensive                Section AFH.20. Office of Audit
      The office provides legal advice to the                  audit services to HHS operating                        Services—Functions
      various components of OIG, other                         divisions (OPDIVs) and the Office of the
      offices of the Department, and DOJ                       Secretary staff divisions (STAFFDIVs) in               A. Immediate Office of the Deputy
      concerning matters involving the                         their development of program policies                  Inspector General for Audit Services
      interpretation of the anti-kickback                      and management of grants and                             This office is directed by the Deputy
      statute and other legal authorities, and                 procurement and in their establishment                 Inspector General for Audit Services
      assists those components or offices in                   of indirect cost rates. The office also                who carries out the functions designated
      analyzing the applicability of the anti-                 performs pre-award audits of grant or                  in the law (section 3(d)(1) of the
      kickback statute to various practices or                 contract proposals to determine the                    Inspectors General Act) for the position,
      activities under review.                                 financial capability of the grantees or                Assistant Inspector General for
                                                               contractors and conducts post-award                    Auditing. The Deputy Inspector General
      Section AFH.00 Office of Audit
                                                               audits.                                                for Audit Services is responsible to the
      Services—Mission
                                                                  C. The office reviews legislative,                  Inspector General for carrying out OIG’s
         The Office of Audit Services (OAS)                    regulatory and policy proposals for                    audit mission and supervises the
      provides policy direction for and                        audit implications. It recommends                      Assistant Inspectors General heading
      conducts and oversees comprehensive                      improvements in the accountability and                 OAS offices described below.
      audits of HHS programs, operations,                      integrity features of legislation,
      grantees and contractors, following                      regulations and policy. It prepares                    B. Financial Management, Regional
      generally accepted government auditing                   reports of audits and special studies for              Operations, and Information
      standards (GAGAS), the Single Audit                      the Secretary, heads of HHS OPDIVs,                    Technology Audits
      Act of 1984, applicable Office of                        regional directors and others. It gathers
      Management and Budget (OMB)                              data on unresolved audit findings for                    This office is directed by the Assistant
      circulars and other legal, regulatory and                the statutorily required semiannual                    Inspector General for Financial
      administrative requirements. This                        reports to the Congress and reconciles                 Management and Regional Operations.
      includes investigative audit work                        resolution data with the Department                    In addition to directing this office, the
      performed in conjunction with other                      OPDIVs as required by the Inspector                    Assistant Inspector General supervises
      OIG components. The office maintains                     General Act of 1978, as amended by                     the eight Regional Inspectors General for
      an internal quality assurance system,                    Inspector General Act Amendments of                    Audit Services. The office’s principal
      including periodic quality assessment                    1988 (Pub. L. 100–504). It conducts                    functions include the direct-line
      studies and quality control reviews, to                  follow-up examinations and special                     responsibility for audits of financial
      provide reasonable assurance that                        analyses of actions taken on previously                statements and financial statement-
      applicable laws, regulations, policies,                  reported audit findings and                            related audits, including internal audits
      procedures, standards and other                          recommendations to ensure                              of functional areas within the
      requirements are followed in all audit                   completeness and propriety. The office                 Department, and directing field audit
      activities performed for, or on behalf of,               provides input to the Office of Inspector              operations.
      the Department. In furtherance of this                   General Semiannual Report to the                         1. The office serves as the focal point
      mission, the organization engages in a                   Congress and produces summaries for                    for all financial statement and financial
      number of activities:                                    both (1) the Orange Book—a summary of                  statement-related audit activity within
         A. The office coordinates and confers                 unimplemented program and                              the Department and serves as the
      with officials of the central Federal                    management improvements                                primary liaison conduit between OIG
      management agencies (OMB, the                            recommended—and (2) the Red Book—                      and Departmental management.
      General Accounting Office (GAO), the                     a summary of significant monetary
                                                                                                                        2. The office provides oversight for
      Office of Personnel Management (OPM)                     recommendations not yet implemented.
                                                                                                                      audits of governments, universities and
      and the Department of the Treasury) on                      D. The office serves as the focal point
                                                                                                                      nonprofit organizations conducted by
      audit matters involving HHS programs                     for all financial management audit
                                                                                                                      non Federal auditors (external audit
      and operations. It provides technical                    activity within the Department and
                                                                                                                      resources) and those under contract
      assistance to Federal, State and local                   provides the primary liaison conduit
                                                                                                                      with OIG.
      investigative offices on matters                         between the OIG and Departmental
      involving HHS programs and                               management. It also provides overall                     3. The office reviews the design,
      operations. It participates in interagency               leadership and direction in carrying out               development and maintenance of
      efforts implementing OMB Circular 133,                   the responsibilities mandated under the                Department computer-based systems
      which calls for use of the single audit                  Chief Financial Officers Act relating to               through the conduct of comprehensive
      concept for most external audits, as well                financial statement audits.                            audits of general and application
      as reviews the quality of those audits as                                                                       controls in accordance with GAO’s
                                                               Section AFH.10, Office of Audit                        Federal Information System Controls
      they pertain to HHS oversight                            Services—Organization
      responsibilities. It performs audits of                                                                         Audit Manual and develops and applies
      activities administered by other Federal                   The office is comprised of the                       advanced computer-based audit
      departments, following the system of                     following components:                                  techniques for use in detecting fraud,
      audit cognizance administered by OMB.                      A. Immediate Office.                                 waste and abuse in HHS programs.
      It participates in the President’s Council                 B. Financial Management, Regional                      4. The office maintains an internal
      on Integrity and Efficiency (PCIE)                       Operations, and Information                            quality assurance system that provides
      initiatives and other governmentwide                     Technology Audits                                      reasonable assurance that applicable
      projects; works with other OIG                             C. Centers for Medicare and Medicaid                 laws, regulations, policies, procedures,
      components on special assignments and                    Services Audits.                                       standards and other requirements are
      projects; and responds to congressional                    D. Grants and Internal Activities                    followed in all financial management
      oversight interests related to audit                     Audits.                                                audit activities performed by the office,
      matters in the Department.                                 E. Audit Management and Policy.                      or on behalf of the Department.


VerDate jul<14>2003   17:42 Jul 01, 2004   Jkt 203001   PO 00000   Frm 00042   Fmt 4703   Sfmt 4703   E:\FR\FM\02JYN1.SGM   02JYN1
      40390                                Federal Register / Vol. 69, No. 127 / Friday, July 2, 2004 / Notices

      C. Centers for Medicare and Medicaid                     and follow-up in accordance with OMB                   Inspector General for carrying out the
      Services Audits                                          Circular A–50, ‘‘Audit Follow-up,’’ and                investigative mission of OIG and for
        This office is directed by the Assistant               the 1988 Inspector General Act                         leading and providing general
      Inspector General for Centers for                        Amendments. The office coordinates                     supervision to the investigative
      Medicare and Medicaid Services (CMS)                     with other OIG components in                           component. The Immediate Office
                                                               developing the Work Plan and provides                  coordinates quality assurance studies to
      Audits. The office conducts audits of
                                                               input to the Office of Inspector                       ensure that applicable laws, regulations,
      CMS program operations and oversees
                                                               Semiannual Report to the Congress.                     policies, procedures, standards and
      nationwide the audits of the Medicare
                                                                                                                      other requirements are followed in all
      and Medicaid programs, their                             Section AFJ.00, Office of                              investigative activities performed by, or
      contractors, and providers of services                   Investigations—Mission                                 on behalf of, the Department.
      and products. It maintains an internal
                                                                 The Office of Investigations (OI) is
      quality assurance system to provide                                                                             B. Investigative Operations
                                                               responsible for conducting and
      reasonable assurance that applicable                                                                               The Assistant Inspector General for
                                                               coordinating investigative activities
      laws, regulations, policies, procedures,                                                                        Investigative Operations, who
                                                               related to allegations of fraud, waste,
      standards and other requirements are                                                                            supervises a headquarters staff and the
                                                               abuse and mismanagement in HHS
      followed in all CMS audit activities                                                                            Special Agents in Charge, directs this
                                                               programs by applicants, grantees,
      performed by, or on behalf of, the                                                                              office.
                                                               contractors, or by HHS employees in the
      Department.                                                                                                        1. The headquarters staff assists the
                                                               performance of their official duties. It
      D. Grants and Internal Activities Audits                 serves as OIG liaison to DOJ on all                    Deputy Inspector General for
                                                               matters relating to investigations of HHS              Investigations in establishing
        This office is directed by the Assistant                                                                      investigative priorities, evaluating the
      Inspector General for Grants and                         programs and personnel, and reports to
                                                               the Attorney General when OIG has                      progress of investigations, and reporting
      Internal Activities Audits. The office                                                                          to the Inspector General on the
      conducts and oversees audits of the                      reasonable grounds to believe Federal
                                                               criminal law has been violated. The                    effectiveness of investigative efforts. It
      operations and programs of the                                                                                  develops and implements investigative
      Administration for Children and                          office serves as a liaison with CMS,
                                                               State licensing boards, and other outside              techniques, programs, guidelines, and
      Families, the Administration on Aging,                                                                          policies. It provides programmatic
      and the Public Health programs, as well                  organizations and entities with regard to
                                                               exclusion, compliance and enforcement                  expertise and issues information on new
      as Statewide cost allocation plans. It                                                                          programs, regulations and statutes. It
      maintains an internal quality assurance                  activities. It works with other
                                                               investigative agencies and organizations               directs and coordinates the investigative
      system, including periodic quality                                                                              regional offices.
      control reviews, to provide reasonable                   on special projects and assignments. In
                                                                                                                         2. The headquarters staff reviews
      assurance that applicable laws,                          support of its mission, the office carries
                                                                                                                      completed reports of investigations to
      regulations, policies, procedures,                       out and maintains an internal quality
                                                                                                                      ensure accuracy and compliance with
      standards and other requirements are                     assurance system. The system includes
                                                                                                                      guidelines. It issues the reports to
      followed in its audit activities.                        quality assessment studies and quality
                                                                                                                      pertinent agencies, management
                                                               control reviews of OI processes and
      E. Audit Management and Policy                                                                                  officials and the Secretary and
                                                               products to ensure that policies and
                                                                                                                      recommends appropriate debarment
         This office is directed by the Assistant              procedures are followed effectively, and
                                                                                                                      actions, administrative sanctions, CMPs
      Inspector General for Audit                              are functioning as intended.
                                                                                                                      and other civil actions, or prosecution
      Management and Policy. The office                        Section AFJ.10, Office of                              under criminal law. It identifies
      manages the human and financial                          Investigations—Organization                            systemic and programmatic
      resources of OAS, including developing                                                                          vulnerabilities in the Department’s
      staffing allocation plans and issuing                      This office comprises the following
                                                               components:                                            operations and makes recommendations
      policy for, coordinating and monitoring                                                                         for change to the appropriate managers.
      all budget, staffing, recruiting, and                      A. Immediate Office.
                                                                 B. Investigative Operations.                         The office reviews proposed legislation,
      training activities of the office. It                                                                           regulations, policies and procedures to
      maintains a professional development                       C. Investigative Oversight and
                                                               Support.                                               identify vulnerabilities and
      program for office staff, which meets the                                                                       recommends modification where
      requirements of Government auditing                      Section AFJ.20, Office of                              appropriate. The office coordinates with
      standards. The office evaluates audit                    Investigations—Functions                               the other OIG components in
      work, including performing quality                                                                              developing the Work Plan and provides
      control reviews of audit reports, and                    A. Immediate Office of the Deputy
                                                               Inspector General for Investigations                   input to the Office of Inspector General
      coordinates the development of and                                                                              Semiannual Report to the Congress. It
      monitors audit work plans. It operates                      This office is directed by the Deputy               reviews investigative files in response to
      and maintains an OAS-wide quality                        Inspector General for Investigations who               Privacy and Freedom of Information Act
      assurance program that includes the                      is responsible for the functions                       requests, and serves as OIG liaison to
      conduct of periodic quality control                      designated in the law for the position,                the Office of the Secretary for Freedom
      reviews. It develops audit policy,                       Assistant Inspector General for                        of Information and Privacy Act requests.
      procedures, standards, criteria and                      Investigations. The Deputy Inspector                      3. The staff provides for the personal
      instructions to be followed by OAS staff                 General for Investigations supervises the              protection of the Secretary.
      in conducting audits of Departmental                     Assistant Inspector General for                           4. The regional offices conduct
      programs, grants, contracts or                           Investigative Operations and the                       investigations of allegations of fraud,
      operations. Such policy is developed in                  Assistant Inspector General for                        waste, abuse, mismanagement and
      accordance with GAGAS and other                          Investigative Oversight and Support                    violations of standards of conduct
      legal, regulatory and administrative                     who head the offices described below.                  within the jurisdiction of OIG in their
      requirements. The office tracks,                            The Deputy Inspector General for                    assigned geographic areas. They
      monitors and reports on audit resolution                 Investigations is responsible to the                   coordinate investigations and confer


VerDate jul<14>2003   17:42 Jul 01, 2004   Jkt 203001   PO 00000   Frm 00043   Fmt 4703   Sfmt 4703   E:\FR\FM\02JYN1.SGM   02JYN1
                                           Federal Register / Vol. 69, No. 127 / Friday, July 2, 2004 / Notices                                            40391

      with HHS operating divisions, staff                        Dated: June 1, 2004.                                   Dated: June 25, 2004.
      divisions, OIG counterparts and other                    Dara Corrigan,                                         LaVerne Y. Stringfield,
      investigative and law enforcement                        Acting Principal Deputy Inspector General.             Director, Office of Federal Advisory
      agencies. They prepare investigative and                 [FR Doc. 04–15058 Filed 7–1–04; 8:45 am]               Committee Policy.
      management improvement reports.                          BILLING CODE 4152–01–P                                 [FR Doc. 04–15016 Filed 7–1–04; 8:45 am]
        5. The office maintains an automated                                                                          BILLING CODE 4140–01–M
      data and management information
      system used by all OI managers and                       DEPARTMENT OF HEALTH AND
      investigators. It provides technical                     HUMAN SERVICES                                         DEPARTMENT OF HEALTH AND
      expertise on computer applications for                                                                          HUMAN SERVICES
      investigations and coordinates and                       National Institutes of Health
                                                                                                                      National Institutes of Health
      approves investigative computer                          National Cancer Institute; Notice of
      matches with other agencies. The office                  Meeting                                                National Cancer Institute; Notice of
      directs and manages criminal                                                                                    Meeting
      investigations into electronic and/or                       Pursuant to section 10(a) of the
      computer-related violations.                             Federal Advisory Committee Act, as                        Pursuant to section 10(a) of the
        6. The office develops all health care                 amended (5 U.S.C. appendix 2), notice                  Federal Advisory Committee Act, as
      mandatory and permissive program                         is hereby given of a meeting of the                    amended (5 U.S.C. appendix 2), notice
      exclusions, and ensures enforcement of                   Advisory Committee to the Director,                    is hereby given of a meeting of the
      exclusions imposed through liaison                       National Cancer Institute.                             National Cancer Institute Director’s
      with CMS, DOJ and other governmental                                                                            Consumer Liaison Group.
                                                                  The meeting will be open to the
      and private sector entities. It is                       public, with attendance limited to space                  The meeting will be open to the
      responsible for developing, improving                    available. Individuals who plan to                     public, with attendance limited to space
      and maintaining a comprehensive OIG                      attend and need special assistance, such               available. Individuals who plan to
      database on all OIG exclusion actions,                   as sign language interpretation or other               attend and need special assistance, such
      and promptly and accurately reports all                  reasonable accommodations, should                      as sign language interpretation or other
      exclusion actions within its authority to                notify the Contact Person listed below                 reasonable accommodations, should
      the database. It informs appropriate                     in advance of the meeting.                             notify the Contact Person listed below
      regulatory agencies, health care                                                                                in advance of the meeting.
                                                                  Name of Committee: Advisory Committee
      providers and the general public of all                  to the Director, National Cancer Institute.               Name of Committee: National Cancer
      OIG exclusion actions, and is                               Date: July 27, 2004.                                Institute Director’s Consumer Liaison Group.
      responsible for improving public access                     Time: 12 p.m. to 1 p.m.                                Date: June 28, 2004.
      to information on these exclusion                           Agenda: The purpose of the meeting will                Time: 12 p.m. to 1 p.m.
      actions to ensure that excluded                          be to discuss the ‘‘Women, Tobacco, and                   Agenda: Future of the DCLG.
      individuals and entities are effectively                 Cancer: An Agenda for the 21st Century’’                  Place: National Institutes of Health, 6116
      barred from program participation.                       report prepared by the Women, Tobacco, and             Executive Boulevard, Suite 220, Room 2218,
                                                               Cancer Working Group.                                  Rockville, MD 20852 (Telephone Conference
      C. Investigative Oversight and Support                      Place: National Cancer Institute, National          Call).
                                                               Institutes of Health, Building 31, Room                   Contact Person: Elisabeth Handley, Acting
         This office is directed by the Assistant              11A03, Bethesda, MD 20892 (Telephone                   Director, Office of Liaison Activities,
      Inspector General for Investigative                      Conference Call).                                      National Institutes of Health, National Cancer
      Oversight and Support who performs                          Contact Person: Cherie Nichols, Executive           Institute, 6116 Executive Boulevard, Suite
      the general management functions of the                  Secretary, National Cancer Institute, National         220, Bethesda, MD 20852, (301) 402–5575.
      office.                                                  Institutes of Health, Building 31, Room                   This notice is being published less than 15
                                                               11A03, Bethesda, MD 20892, (301) 496–5515.             days prior to the meeting due to scheduling
         1. This office manages the human and                                                                         conflicts.
                                                                  Any interested person may file written
      financial resources of OI, including                                                                               Any interested person may file written
                                                               comments with the committee by forwarding
      developing staffing allocation plans and                 the statement to the Contact Person listed on          comments with the committee by forwarding
      issuing policy for coordination and                      this notice. The statement should include the          the statement to the Contact Person listed on
      monitoring all budget, staffing and                      name, address, telephone number and when               this notice. The statement should include the
      recruiting.                                              applicable, the business or professional               name, address, telephone number and when
                                                               affiliation of the interested person.                  applicable, the business or professional
         2. This office plans, develops,
                                                               Information is also available on the                   affiliation of the interested person.
      implements and evaluates all levels of                                                                             Information is also available on the
      employee training for investigators,                     Institute’s/Center’s home page:
                                                               deainfo.nci.nih.gov/advisory/joint/htm,                Institute’s/Center’s home page:
      managers, support staff and other                                                                               deainfo.nci.nih.gov/advisory/dclg/dclg.htm,
                                                               where an agenda and any additional
      personnel. It oversees a law enforcement                 information for the meeting will be posted             where an agenda and any additional
      techniques and equipment program.                        when available.                                        infromation for the meeting will be posted
         3. This office coordinates the general                                                                       when available.
      management processes, implements                         (Catalogue of Federal Domestic Assistance              (Catalogue of Federal Domestic Assistance
      policies and procedures published in                     Program Nos. 93.392, Cancer Construction;              Program Nos. 93.392, Cancer Construction;
                                                               93.393, Cancer Cause and Prevention                    93.393, Cancer Cause and Prevention
      the OIG Administrative Manual and
                                                               Research; 93.394, Cancer Detection and                 Research; 93.394, Cancer Detection and
      elsewhere. It also coordinates a national                Diagnosis Research; 93.395, Cancer                     Diagnosis Research; 93.395, Cancer
      inspection program to ensure                             Treatment Research; 93.396, Cancer Biology             Treatment Research; 93.396, Cancer Biology
      compliance with the Federal Managers                     Research; 93.397, Cancer Centers Support;              Research; 93.397, Cancer Centers Support;
      Financial Integrity Act, the President’s                 93.398; Cancer Research Manpower; 93.399,              93.398, Cancer Research Manpower; 93.399,
      Council on Integrity and Efficiency, and                 Cancer Control, National Institutes of Health,         Cancer Control, National Institutes of Health,
      Attorney General guidelines.                             HHS)                                                   HHS.)



VerDate jul<14>2003   20:48 Jul 01, 2004   Jkt 203001   PO 00000   Frm 00044   Fmt 4703   Sfmt 4703   E:\FR\FM\02JYN1.SGM   02JYN1
